BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Reco r ds

CERTIFICATE OF COMPLIANCE
No. 20-1755
DEAN HOTOP, KEN SCHNEEBELI, JEFF ZELL, SHERMAN
ZELL, LOIS ZELL, LOUISE PETER, SEIGI TADOKORO, PAT
CREMA, SEAN RHINEHART, SHUCHUN HUANG, JAMES
CAMPAGNA, SAL RUIZ, ISAAC AGAM, STEVE MAHL,
LLOYD KIP, ROBERTA MOORE, DENG LIU, SHASHA
CHEN, XIAODONG LI, ZHONGHUA PEI, XIAOCONG YE,
SMALL PROPERTY OWNERS ASSOCIATION - SAN JOSE,
IN ITS REPRESENTATIVE CAPACITY ON BEHALF OF ITS
ASSOCIATION MEMBERS,

Petitioners,
V.

CITY OF SAN JOSE, A MUNICIPAL CORPORATION,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief of Petitioners contains 2,574
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite 102
Cincinnati, Ohio 45249

www.beckergallagher.com

Franklin Square
: 1300 I Street, NW, Suite 400E

Washington, DC 20005

Executed on September 30, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

